No.
In The
Supreme Court of the United States
Rohit Kumar,
Petitioner,
v.
William Barr (Attorney General)
On Behalf of United States Federal Government
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OFAPPEALS FOR
THE EIGHTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

ROHIT KUMAR
ADDRESS: 99 Florence Street,
APT#506
Malden, Massachusetts -02148
PH: +1-848-702-9878
E-MAIL: ROHITK2U@GMAIL.COM
PRO SE PETITIONER

QUESTION PRESENTED
With the background presumption that all
Supreme Court Justices are well aware of details of
my case the question presented is as follows:

Will W now order killing of Federal Judges and
Appeals court Judges under the direct nose of this
honorable court??

1

PARTIES TO THE PROCEEDING
The PETITIONER is:
Rohit Kumar

RESPONDENT is:
Mr Robert L Homan
Assistant U.S. Attorney
United States Attorney's Office - Omaha
Nebraska 68102-1506
ATTORNEY FOR DEFENDANT-APPELLEE
William Barr (Attorney General)
On Behalf of United States Federal Government

11

RELATED PROCEEDINGS
1. IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
OMAHA DIVISION
Docket No^ 8:i8-CV-578
Order entered on: 05/28/19

2. IN THE UNITED STATES COURT OF APPEALS

FOR THE EIGHTH CIRCUIT
Case No: 19-2493
Rohit Kumar, Plaintiff Appellant
v.
William P. Barr, Attorney General of United
States (Matthew G. Whittaker named on original
complaint); Joseph P. Kelly! Jessie K. Liu
Defendants - Appellees
Order entered on: 12/ 20/2019

3. IN THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
Case No: 19-2493
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
Order entered on: 01/16/ 2020

in

TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................
PARTIES TO THE PROCEEDING.........
RELATED PROCEEDINGS...................
TABLE OF AUTHORITIES..... ...............
OPINIONS BELOW..................................
JURISDICTION........................................
BACKGROUND....... ................................
INITIAL ARGUMENT..............................
STATEMENT OF THE CASE..................
REASONS FOR GRANTING PETITION
CONCLUSION....... ..................................
APPENDIX A............................................
APPENDIX B............................................
APPENDIX C......... ..................................

IV

1
11
111

v
2
2
2
3

4
9
13
la
3a
8a

TABLE OF AUTHORITIES
CARPENTER v. UNITED STATES,
No. 16-402. Argued November 29, 2017—Decided
June 22, 2018
13
5 U.S. Code § 702 .............
8
18 USC § 242
................
8
18 U.S.C. §2510-2520 (1988)
13
18 U.S. Code §2511..............
12
18 USC § 2511(1)..................
13
18 U.S.C. § 2511(2)(£) (codifying § 201(b) of FISA). 13
18 USC §§ 2515, 2518(10) (a)...
13
18 U.S. Code §2516....................
12
18 U.S.C. § 2516(1) (2)..............
13
18USC§§ 2516(1)(2), 2518(l)(a)
13
18 U.S. Code § 2518.......... .......
12
18 USC § 2518(1) (b) (5)......... .
13
18 USC § 2518(l)(c) (3)(c).........
13
18 USC § 2518(7) (8)(d).............
13
18 USC § 2520.............................
13
18 U.S. Code § 2712.................
13
50 USC § 1806(f) .........................
8
50 USC § 1809..............................
8
50 USC § 1810..............................
8

v

No.

In the Supreme Court of the United States
Rohit Kumar, PETITIONER
v.
William Barr (Attorney General)
On Behalf of United States Federal Government
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Petitioner respectfully petitions this
honorable court to review the judgment of the United
States Court of Appeals for the Eighth Circuit in this
case.

1

OPINIONS BELOW
The opinion of the court of appeals (Appendix A- la2a) is included below. The order of the district court
(Appendix B-3a-7a) is included below.

JURISDICTION
The judgment of the court of appeals was entered
on December,20 2019. A petition for rehearing was
denied on January 16, 2020. The jurisdiction of this
Court is invoked under 28 U.S.C. 1254(1).

BACKGROUND
W is not even a party to the case. And he has
destroyed the entire structure of Federal Judiciary
already. This case has not been adjudicated in the
petitioner views at either the federal level or
appellate court level because W was able to get the
decision he wanted ON THE EXACT DATE . he
wanted and the petitioner can prove his statement
with facts.
If the petitioner has not put W and Hussein as a
party to the case and they are harassing him day and
night using the surveillance video being conducted by
2

DOJ -then imagine what would have been the level of
legal harassment if they were made a party to the
case.
The petitioner cannot get a lawyer and even in the
courts the decisions are hijacked by these criminal
elements. It is unprecedented that in the United
States the model country for the whole world these
people can hijack the judiciary and destroy the
constitutional system of checks and balances on all
branches of the government.

INITIAL ARGUMENT
The Chief Justice of United States says that when
you are pitted against the most powerful agency in the
world the United States government then what is the
level of DIS-advantage you are working with.
However, this case here is not only the petitioner is
pitted against the United States government but
against a host of corrupt DOJ and FBI officers who
are ready to break any law (Check the letters written
to FBI Director intimating him about his potential
jailtime and yet his cooperation with these people to
break the law to prevent the case from coming out)
and do anything for these criminal elements and go to
any length to suppress the case and prevent any
evidence from coming out which every Justice of this
honorable court already has all the evidence that is
needed to adjudicate this case. And even after all of
this when a proper legal argument is presented then
the Judge’s necks are on the line for sacrificing and
they will go after Judges and anyone who comes in
3

their way and the court can make enquiries what is
going on in the background and when the surveillance
will come to an end so that the petitioner can resume
a normal life after the criminals have been brought to
justice.

STATEMENT OF THE CASE
Unprecedented in the history of United States
since the inception of this nation on July 4th, 1776 this
has never happened where one guy has subjugated
the entire Judicial system of the country to extreme
criminality targeting Federal Judges and appeals
court Judges to get the exact judgement that he
desires on the date that he desires. This is so
unprecedented that such a scenario is unthinkable
even in a third world country with even dictatorship.
These criminals have destroyed the country’s legal
system to such levels and now it is up to the Supreme
Court to decide to revive the sanctity of the criminal
justice system of United States of America or drown
it permanent in a sea of criminality that has never
grazed this country ever before in the entire history of
her 244 yrs. of existence as an Independent nation
and an example of model to be followed by other
nations in this world.
If you take this case W IS GOING TO COME
AFTER YOU. All the Supreme Court Justices will
face the same threats and the same perils of living
under this whole cabal of criminal elements. You all
saw how these people went after one Donald J Trump
just so that they could blackmail him and terrorize
4

him to prevent him from prosecuting this case or in
short to prevent him from prosecuting their continued
crime spree. They are going to come after all the nine
justices of the Supreme Court as well and do you want
to live under this cloud of fear and crime or you want
to restore the justice system and give them the most
severe punishment that is allowed under the legal
provisions so that anyone else who uses the vehicles
of government power to terrorize and illegally destroy
other people’s lives (law abiding citizens) should
shiver in their spine in future.
If a FBI Director participates with these people in
furthering their crime T ASK what should be the
severity of punishment that should be accorded to him
so that the next FBI Director who is presented with
the same situation should shiver in their spine that
he should die with fear of imagining to become a part
of any such criminal network ever again.
During the course of this litigation process the
Defense Counsel who is an employee of DOJ has
openly lied and misled the Appellate court that there
is no surveillance going on, to be precise -“We have
not accepted any ongoing surveillance by DOJ” and
there has been no consequence about knowingly lying
to an appeals court because these criminals now
control the entire judicial process and they have no
fear left for any consequences for PERJURY activities
and breaking the law and they are openly showing
middle finger to all the courts that they have no
jurisdiction over such matters even if they have
committed crimes so what ?? and when we are in such
situation what can now be done about it.

5

There is a table of authorities where I provide all
the legal statuettes that apply in this case like 50
USC § 1806(f) and 5 U.S. Code § 702 but the section
has not been discussed on purpose to emphasize to
you that this is a case which is above and beyond the
crime families like Gambino family of New York. The
criminals that are on the table in this case are above
and beyond even the organized crime because for
them no one is untouchable and they can easily kill
Judges and anyone who comes in their way. That is
why legal provisions do not even matter in this case.
W has shredded to pieces the constitution and the US
Code in such a manner that what he says is the law
and he can get the verdict he wants at the time he
wants and when that is going on, talking about FISA
and Wiretap acts does not carry any meaning.
THERE IS NO POINT IN ARGUING LEGAL
MATTERS ABOUT FACTUAL CLAIMS AND
PLAUSIBILITY. ALSO, THE MAJOR ARGUMENT
HERE IS THAT THE PLAINTIFF SAYS THAT ALL
SUPREME COURT JUSTICES ARE ALREADY
AWARE
ABOUT
HIS
CASE
AND
ALL
PLAUSIBILITY
AND
IMPLAUSIBILITY
ARGUMENT ENDS THERE.
These criminals are parasites. They suck on the
society and destroy many people’s lives. l am one out
of many in a long series. However, the difference is
that in my case you have proof. In other cases, you
will not find any proof. These criminal elements work
under a simple theory. If there is no proof means there
is no crime. And so, they use FBI and DOJ and will go
to any length to eliminate all kinds of proofs for their
crimes. However, in my case when there is proof they
started grabbing the necks of Judges who were
6

adjudicating the cases. So, you are now the judge of
what to do in this case??
When the President of United States fired Janies
Comey the FBI Director, I told him (public
broadcasting system-illegal surveillance) that if he
gets killed no one will be able to do nothing. The
moment he took oath of office they started FBI
Investigation on him and they had prepared for firing
of Comey in advance and they used the senate to
appoint Mueller -the same guy who initiated the
surveillance in 2001 against me and they served 500
search warrants on him before finally acquitting him
and then immediately started impeachment
proceedings against him. The chief Justice himself is
witness to this whole criminal cabal and their
activities and he is the judge who has to administer
justice because he has taken an oath to administer
justice without any prejudice.
So, this is the strangest of all. I suggested to the
President through the public surveillance system,
that I would like Joe Arpaio to become the next FBI
Director. And even before the President could
consider this request both W and HW ran as if their
lives were on the line to suck the ass of Arpaio and it
happened so bad that Arpaio ended up running
against our candidate Dr. Kelly Ward just to sink her
election in the Arizona primaries election. This is
important to emphasize how desperate these criminal
elements are to uphold their control over FBI using
whatever means they can.
Lastly, we all are aware of the fact that courts and
criminal justice system is the line separating the rule
of law and the mob rule. Mob rule is a rule where
7

these criminals will come after all the justices of the
Supreme Court should they dare to take up this case
and lock up these criminals -these are not ordinary
criminals. These are hardcore criminals who use
government cover for their criminal acts and they
control the DOJ and the FBI. And they openly show
their middle finger to the courts that even if we were
to assume the imposition of 18 U.S.C. § 241 and 18
U.S.C. § 242 and they laugh at the courts that even if
we were to assume about the 18 USC 241 section -the
courts lack jurisdiction over such matters because
only government can prosecute criminal matters and
there is no civil remedy to such actions. And so long
they have DOJ and FBI in their pockets they are
outside of the reach of law.
And when these elements are provided that
Congress has made provisions for civil liability under
50 U.S.C. § 1810 for 50 U.S.C. § 1809 violations then
W lunged at lightning speed to grab the neck of the
Federal Judge and get the decision that he wanted at
the time he wanted and threw away the whole book of
law and the entire legal system of this country. That
is what we are dealing with as of today. And this is
what lies before you whether this country will
continue to have the rule of law or the mob rule. That
is a choice that the Justices of this honorable court
has to make today in this case.
After reading the judgement of District Court
Judge one may come to the conclusion that the timing
of decision in the sequence as reported in first brief to
appeals court was a coincidence. However, all the
subsequent decisions from appeals court were timed
according to when W was most desperate and the time
he most wanted these decisions to be made. So, W was
8

in control of the decision like in November of 2019
itself but he got it put on hold and got the decision
released on the exact day that he was desperate to hit
me hard because I was going hard after the guy he
has put in our current company (to harass me and get
me fired) as his agent to be fired from the company.
And the day of December 20 and Jan 16 when he was
most desperate he got these decisions released
thereby confirming that the normal legal process is
not happening here and he has subjugated the courts
to his will and criminal network.
There is nothing much to be added anymore. When
we have to follow the rules under FRCP and FRAP
and United States Code and many other rules these
elements operate outside of the limits of the laws and
they control the FBI and DOJ and can literally take
down an elected President and do virtually whatever
they want including killing Judges and whoever they
deem a threat to their mob rule. So now it is up to the
Justices of Supreme Court because the Supreme
Court was established precisely to preserve the
United States Constitutional system which has
crumbled under these criminals and the court must
live up to the principles of her founding or else the
American society as a whole will cease to exist.

REASONS FOR GRANTING PETITION
It is told to us when you see something say
something. When an active crime is going on it is the
responsibility of every citizen to bring it to the
9

attention of required authorities. Hussein was
stalking me since 2011 ever since they got my US visa
cancelled but I did not know about it. I knew that
these people had conspired to get my visa cancelled
but that they will pursue you and get fired from jobs
was unprecedented and I did not anticipate it. They
did it all hidden. However, when Hussein’s getting me
fired from multiple jobs did not yield any result then
he let me know that he was behind it all. It was only
in Feb-March of 2014 I came to know that he was in
legal jeopardy and he was behind all the firings. The
next job that he got me fired from in June of 2014, I
immediately wrote letters to the Chief justice of
United States and all the Justices of Supreme Court
that this guy is involved in active crime spree and he
is undertaking all these activities to suppress his
criminal record. Some kind of agreement or whatever
NDA (Non-Disclosure Agreement) kind of thing he
wanted.
After that he got me fired from my last job in 2015
September and I wrote four letters to the Supreme
Court intimating them about crucial events that took
place like when they tried to use drugs to assassinate
me and they used some agents to break into my house
to prevent me from writing letter to the FBI Director.
During this period, I also wrote a letter to the Chief
Judge of DC Federal Court who sent me back the
application to file a petition before his court. And then
2016 elections happened and despite their ganging up
they lost and Donald J Trump got elected the
President of United States. The moment he became
the President they initiated a FBI Investigation on
him and when he fired Comey then they started
Mueller investigation on him.
10

In September of 20181 got an opportunity to travel
to United States and despite them getting me
tortured in the guest house in New Jersey where I
was residing, I finally managed to get a job and
travelled to Omaha and on December 18, 2018 I filed
the case before the Nebraska Federal Court, Omaha
division. Since there were cameras all over they could
find out to which lawyer I was approaching and they
would not let me have a lawyer. My initial application
was badly written because this was my first exposure
to legal system. The moment I filed my application DOJ came laughing at me asking for dismissal of case
saying that even if 18 USC § 241 and § 242 were to be
applicable the court lacks jurisdiction to be able to do
anything. And when all the legal statuettes were
provided before anything could happen - W lunged fast
at lightning speed to grab the neck of the Federal
Judge or whatever he did -the judgement came as he
wanted and on the date, he wanted that you can find
from the timelines of event and the filings to the
appellate court. Yet I want to let this court know that
the criminal organization that W heads and uses to
subdue any and all elements who oppose him
preceded my presence in this world itself. Just like
Organized crime they operate on the.principles that if
there is no evidence then there is no crime and they
will go to any length to eliminate the existence of any
evidence. And I am not the first person whose lives
have been destroyed by these criminal elements but if
this court recognizes the severity of the situation and
having all the evidence right in front of their eyes they
can ensure that I am their last victim and they will
not continue their crime spree unabated, uncontrolled
and unchecked.
11

I intimated FBI nothing happened. I intimated
local police and they told me that FBI is above them
and a complaint against FBI is no complaint. I
intimated mayor’s office, Sherriff s office (Omaha) but
they told me that they cannot intervene in a federal
matter. I intimated US attorney’s office and they
informed that they do not cater to general public and
I will have to file my case in court. I intimated 10
Congressional committees and 10 Senate committees
and White House but nothing happened. I filed the
case in Federal Court and these criminal elements
subdued the federal court and the appeals court and
have been getting the verdict they want at the time
they want. This is the state of judiciary in this country
now before your eyes.
Legal Violations^
(1) bugging and wiretapping are permitted only when
investigating specified crimes, 18 U.S.C. § 2516(l) (2);
(2) authorization for bugging and wiretapping
requests must be centralized in each jurisdiction so as
to prevent local abuses and to make an identifiable
person answerable for abuses, §§ 2516(l) (2),
2518(l)(a);
(3) there is a statutory exclusionary rule for
information obtained in violation of Title III, and that
rule is broader than the constitutional exclusionary
rule as it existed in 1968, let alone now, §§ 2515,
2518(l0)(a);
(4) bugging and wiretapping must, in many instances,
be disclosed to the targets after the investigation is
concluded, § 2518(7) (8)(d);
12

(5) police officers engaging in warrantless
wiretapping or bugging are subject to criminal
penalties, § 251l(l);
(6) targets of unlawful wiretapping and bugging have
a private cause of action for
damages, § 2520;
(7) the statutory requirements for minimizing
obtrusiveness are much more specific than the
Constitution requires, § 2518(l) (b) (5); and
(8) bugging and wiretapping are permitted only when
the government can show that conventional, less
intrusive investigation techniques have proven or are
very likely to prove unsuccessful, § 2518(l)(c) (3)(c).
The District court decision (Appendix B) and affirmed
by Appeals court is in direct violations of Supreme
Court decisions in CARPENTER v. UNITED
STATES.
No. 16-402. Argued November 29,
2017—Decided June 22, 2018

CONCLUSION
These criminals have turned the US laws into a
book of joke and they can get any verdict they want
on the date they want then what is the point in
making arguments about factual assertions and legal
violations??
Now that W has taken over Federal Judiciary and
appeals court, this is the only court which can stand
between the rule of law and mob rule. And so, it is up
13

to this honorable court to uphold rule of law or allow
mob rule unto eternity.
Respectfully submitted.
Dated: March 10,2020
S/ Rohit Kumar
Rohit Kumar
99 Florence Street, Apt# 506
Malden, Massachusetts -02148
Phone :848-702-9878
E-mail: rohitk2u@gmail.com

14

